<html>
<title> - SECRET SERVICE ON THE LINE: RESTORING TRUST AND CONFIDENCE</title>
<body><pre>[Senate Hearing 112-559]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-559

 
       SECRET SERVICE ON THE LINE: RESTORING TRUST AND CONFIDENCE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS


                             SECOND SESSION

                               __________

                              MAY 23, 2012

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
75-215                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
                    Holly A. Idelson, Senior Counsel
           Jason M. Yanussi, Senior Professional Staff Member
               Nicholas A. Rossi, Minority Staff Director
          Richard H. Houghton, Minority Deputy General Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                 Patricia R. Hogan, Publications Clerk
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     4
    Senator Brown................................................    14
    Senator Johnson..............................................    18
    Senator Portman..............................................    20
    Senator Carper...............................................    22
Prepared statements:
    Senator Lieberman............................................    35
    Senator Collins..............................................    38
    Senator Carper...............................................    40
    Senator Landrieu.............................................    41

                               WITNESSES
                        Wednesday, May 23, 2012

Mark J. Sullivan, Director, U.S. Secret Service, U.S. Department 
  of Homeland Security...........................................     6
Charles K. Edwards, Acting Inspector General, U.S. Department of 
  Homeland Security..............................................     8

                     Alphabetical List of Witnesses

Edwards, Charles K.:
    Testimony....................................................     8
    Prepared statement...........................................    50
Sullivan, Mark J.:
    Testimony....................................................     6
    Prepared statement...........................................    42

                                APPENDIX

Letter of Support from the Federal Law Enforcement Officers 
  Association....................................................    53
Responses to post-hearing questions for the Record from:
    Mr. Sullivan with attachments................................    55
    Mr. Edwards..................................................   113


       SECRET SERVICE ON THE LINE: RESTORING TRUST AND CONFIDENCE

                              ----------                              


                        WEDNESDAY, MAY 23, 2012

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:31 a.m., in 
room SD-G50, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Carper, Landrieu, Collins, 
Brown, Johnson, Portman, and Moran.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order.
    Good morning, and thanks to those who are here, 
particularly Director Mark Sullivan of the U.S. Secret Service 
agency, and Charles Edwards, the Acting Inspector General of 
the Department of Homeland Security (DHS).
    Over its nearly 150-year history, the Secret Service has 
built an extraordinary reputation for selfless and skilled 
devotion to the important and dangerous work its agents do: 
Protecting the President of the United States and other high 
officials of our government, as well as foreign leaders who 
visit the United States.
    That great reputation, was, sadly, stained last month when 
11 Secret Service employees engaged in a night of heavy 
drinking in Cartagena, Colombia, which ended with them taking 
foreign national women back to their hotel rooms.
    We have called this hearing as part of our Committee's 
responsibility to oversee the functions of the Federal 
Government, particularly those within the Department of 
Homeland Security, including the U.S. Secret Service.
    There are three things we hope to accomplish today and in 
our Committee's ongoing investigation.
    First, we want to get the facts about what precisely 
happened in Cartagena and where the Secret Service's own 
investigation of Cartagena stands today.
    As has widely been reported, the misconduct involved 11 
agents and officers who arrived in Cartagena the morning of 
Wednesday, April 11, and were off duty the rest of the day.
    The men went out--in groups of two, three, and four--to 
four different nightclubs that evening. After considerable 
drinking, they returned to their rooms at the El Caribe Hotel 
with women they had met at the clubs--some of whom were 
prostitutes--and registered the women as overnight guests 
according to hotel rules. The Secret Service subsequently 
learned that another individual engaged in similar conduct in 
Cartagena, the night of Monday, April 9. All of the agents and 
officers held security clearances, and two were in supervisory 
positions.
    If one of the agents had not argued with one of the women 
about how much he owed her, the world would never have known 
this sordid story.
    But the world does know this sordid story, and that is why 
the Secret Service, the Inspector General (IG), and we must do 
everything we can to learn the truth, as best we can. Our 
purpose is not to diminish the U.S. Secret Service but, quite 
the contrary, to help restore its credibility which our Nation, 
indeed the continuity of our government, so clearly depends 
upon.
    Second, as part of that search for truth and lessons to be 
learned, we need to know if there were warning signs that 
misconduct had become a pattern among traveling Secret Service 
agents, in the years before Cartagena, that should have been 
seen and stopped. It is hard for many people, including me, I 
will admit, to believe that on one night in April 2012, in 
Cartagena, Colombia, 12 Secret Service agents--there to protect 
the President--suddenly and spontaneously did something they or 
other agents had never done before, that is, go out in groups 
of two, three, or four to four different nightclubs or strip 
clubs, drink to excess, and then bring foreign national women 
back to their hotel rooms.
    That lingering disbelief led our Committee to send a series 
of questions to the Secret Service to determine if there was 
any evidence in their records of patterns of previous 
misconduct. We have begun to review the agency's answers and 
have found individual cases of misconduct over the last 5 years 
that I would say are troubling, but do not yet find evidence at 
all sufficient to justify a conclusion of a pattern or culture 
of misconduct.
    But the Secret Service disciplinary records, of course, 
only take us so far. They only include cases where misconduct 
was observed, charged, and/or adjudicated.
    We can only know what the records of the Secret Service 
reveal and what others, including whistleblowers, come forward 
to tell us. Thus far, the Committee has received a relatively 
small number of calls from people outside; whistleblowers. But 
thus far they, too, have not provided evidence of a pattern of 
misconduct by Secret Service agents similar to what happened in 
Cartagena.
    However, we have not concluded our oversight of this 
matter, nor has the Department of Homeland Security Inspector 
General. And, therefore, in this public forum, I would ask 
anyone who has information about the conduct of the Secret 
Service employees over the years that they believe is relevant 
to our investigation to contact our staff at the Homeland 
Security and Governmental Affairs Committee here at the U.S. 
Capitol.
    Today's Washington Post reports, based on multiple 
anonymous sources that, ``sexual encounters during official 
travel had been condoned under an unwritten code that allows 
what happens on the road to stay on the road.'' The article 
also contends that this tolerance was part of what was called 
the ``Secret Circus''--a mocking nickname the employees 
apparently use when large numbers of agents and officers arrive 
in a city.
    One of the men implicated in Cartagena has told associates 
that a senior security supervisor had advised agents to follow 
loose guidelines when spending time with women they met on the 
road: One-night stands were permitted as long as the 
relationship ended when the agent left the country. This 
Washington Post article, which, again, I say was based on 
anonymous sources--though the article contends there were 
multiple sources--obviously encourages people's worse 
suspicions about a pattern of conduct existing within the 
Secret Service and needs a response from Director Sullivan, 
hopefully this morning.
    In addition, as I mentioned, our initial review of the 
Secret Service agency's disciplinary records for the last 5 
years, which is what we requested, shows some individual cases 
of misconduct which are troubling but are not evidence yet of a 
pattern of misconduct. These records do reveal 64 instances--
again, over 5 years--in which allegations or complaints 
concerning sexual misconduct were made against employees of the 
Secret Service. Most of these complaints involved sending 
sexually explicit emails or sexually explicit material on a 
government computer, although three of the complaints involved 
charges of an inappropriate relationship with a foreign 
national woman, and one was a complaint of nonconsensual sexual 
intercourse. And, of course, either this morning or in our 
investigation, we would like the Secret Service response to 
those as we need to know more about them.
    Thirty other cases over 5 years involved alcohol, almost 
all relating to driving while under the influence. I hasten to 
say that these complaints involve a very small percentage of 
the thousands of people who have worked at the U.S. Secret 
Service during the last 5 years. And I also want to say that 
discipline was imposed in most of the cases. Nonetheless, it is 
important for us to know how those complaints were handled and 
whether, looking back, they should have been warnings of worse 
to come.
    We want to know what reforms the Secret Service is 
implementing to make sure that what happened in Cartagena never 
happens again.
    I know Secret Service Director Sullivan has already made 
some changes, such as increasing the no alcohol before 
reporting for duty rule from 6 to 10 hours and banning foreign 
national women explicitly from hotel rooms.
    But I also want to hear what the Secret Service is doing to 
encourage people to report egregious behavior when they see 
it--to ensure that no code of silence exists among agents and 
officers.
    Finally, let me put this in a larger context. In the last 
several days, the Secret Service has been called on to provide 
protection for a large number of world leaders who were 
attending both the North Atlantic Treaty Organization (NATO) 
and the G-8 summits in the United States. The presidential 
campaigns of 2012 are ongoing, and the Secret Service needs to 
protect the candidates and secure two large national 
conventions. And, of course, ultimately, and most importantly, 
the President and Vice President of the United States and their 
families need protection every day.
    That is why the Cartagena scandal has to be dealt with head 
on and quickly. The credibility of the Secret Service is too 
important and its mission too critical to our country to leave 
any questions about Cartagena and what preceded it unanswered.
    I want to personally thank Secret Service Director Sullivan 
for his cooperation with our investigation and also to thank 
him because he has worked very hard and fast since he learned 
of the crisis to investigate it and try to restore the 
credibility of the Secret Service.
    Director Sullivan, I look forward to your testimony, as I 
do to yours, Inspector General Charles Edwards.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. Let me begin my 
remarks today by stating my strong belief that the vast 
majority of the men and women of the U.S. Secret Service are 
professional, disciplined, dedicated, and courageous. They do a 
difficult job extraordinarily well.
    The honorable conduct of the many true professionals of the 
Secret Service stands in stark contrast to the misconduct that 
occurred in Colombia last month on the eve of the President's 
visit there. The timing makes the appalling behavior all that 
much more troubling not only to me but also to the majority of 
Secret Service personnel both past and present.
    I will not dwell on the details of the incident since they 
have already been so widely reported and I am sure will be 
discussed by Director Sullivan today. The behavior is morally 
repugnant, and I certainly do not want to downplay that fact. 
My concerns, however, go far beyond the morality of the agents' 
actions.
    First of all, this reckless behavior could easily have 
compromised the individuals charged with the security of the 
President of the United States. And, second, the facts so far 
lead me to conclude that, while not at all representative of 
the majority of Secret Service personnel, this misconduct was 
almost certainly not an isolated incident. Let me discuss both 
of these concerns in a bit more detail.
    It is basic ``Counterintelligence 101'' that Secret Service 
personnel and others holding sensitive positions of trust in 
the U.S. Government should avoid any situation that could 
provide a foreign intelligence, security service, or criminal 
gangs with the means of exerting coercion or blackmail. Yet two 
of the primary means of entrapment--sexual lures and alcohol--
were both present here in abundance.
    While the preliminary investigation has shown that none of 
these men had weapons or classified material in their hotel 
rooms, they still could easily have been drugged or kidnapped 
or had their liaisons with these foreign national women used to 
blackmail them, thereby compromising their effectiveness and 
potentially jeopardizing the President's security. They 
willingly made themselves potential targets not only for 
intelligence or security services, but also for groups like the 
Revolutionary Armed Forces of Colombia (FARC) or drug cartels.
    There is absolutely no excuse for, or factor that can 
mitigate, such recklessness. The Secret Service, to its credit, 
has tightened up its regulations and oversight to try to ensure 
that this never happens again.
    Second, the facts suggest to me that this likely was not 
just a one-time incident.
    If only one or two individuals out of the 160 male Secret 
Service personnel assigned to this mission had engaged in this 
type of serious misconduct, then I would think it was an 
aberration. But that was not the case; there were 12 
individuals involved--12. That is 8 percent of the male Secret 
Service personnel in-country and 9 percent of those staying at 
a particular hotel.
    Moreover, contrary to the conventional story line, this was 
not simply a single, organized group that went out for a night 
on the town together. Rather, these were individuals and small 
groups of two and three agents who went out at different times 
to different clubs, bars, and brothels, but who all ended up in 
compromising circumstances.
    In addition, and perhaps most troubling, two of the 
participants were supervisors--one with 22 years of service and 
the other with 21 years. That surely sends a message to the 
rank-and-file that this kind of activity is somehow tolerated 
on the road.
    The numbers involved, as well as the participation of two 
senior supervisors, lead me to believe that this was not a one-
time event. Rather, the circumstances unfortunately suggest 
that different rules apply on the road, and they suggest an 
issue of culture.
    And it may well be a culture that spans agencies. The 
Secret Service and the Department of Justice Inspector General 
are continuing to investigate yet another Secret Service agent 
and at least two Drug Enforcement Agency (DEA) personnel who 
entertained female foreign nationals in the Cartagena apartment 
of one of the DEA agents.
    Moreover, the evidence thus far in that investigation 
suggests that was not a one-time incident.
    And, of course, the original reports out of Colombia also 
alleged misconduct by about a dozen members of our Armed 
Forces.
    Again, I want to emphasize that the vast majority of our 
law enforcement and military personnel are real heroes, and I 
deeply appreciate the dangers that those deployed overseas face 
every day. Given this apparent question of culture, however, I 
am pleased that the Department of Homeland Security Inspector 
General will be examining the culture of the Secret Service to 
see if there is something systemic that led to these incidents. 
And the Director himself has convened a task force. I will 
follow these developments closely.
    Finally, Mr. Chairman, I do want to join you in recognizing 
that Director Sullivan and the Acting IG have acted in a 
forthright and open manner with this Committee over the past 6 
weeks as we have attempted to better understand the 
ramifications and causes of this scandal.
    Thank you, Mr. Chairman, for holding this important 
hearing.
    Chairman Lieberman. Thank you very much, Senator Collins, 
for your opening statement.
    Director Sullivan, we thank you for being here, and we 
would welcome your testimony at this time.

    TESTIMONY OF MARK J. SULLIVAN,\1\ DIRECTOR, U.S. SECRET 
         SERVICE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Sullivan. Thank you. Good morning, Chairman Lieberman, 
Senator Collins, and distinguished Members of the Committee. I 
appreciate the opportunity to appear before you to discuss the 
facts surrounding the misconduct of U.S. Secret Service 
employees in Cartagena, Colombia, the immediate actions taken 
by the agency to ensure the protective mission was not 
compromised, the results to date of the agency's internal 
investigation into this matter, and the actions that have been 
put into place thus far.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sullivan appears in the Appendix 
on page 42.
---------------------------------------------------------------------------
    The last several weeks have been a difficult time for the 
U.S. Secret Service, and I would like to begin by talking about 
the outstanding men and women who serve in our organization. 
The overwhelming majority of the men and women who serve in 
this agency exemplify our five core values of justice, duty, 
courage, honesty, and loyalty. On a daily basis, they are 
prepared to lay down their lives to protect others in service 
to their country. And it is precisely because of these 
longstanding values that the men and women of this agency are 
held to a higher standard.
    Clearly, the misconduct that took place in Cartagena, 
Colombia, is not representative of these values or of the high 
ethical standards we demand from our nearly 7,000 employees. I 
am deeply disappointed and I apologize for the misconduct of 
these employees and the distraction that it has caused.
    The men and women of the U.S. Secret Service are committed 
to continuing to live up to the standards that the President, 
the Congress, and the American people expect and deserve. From 
the beginning of this incident, we have strived to keep Members 
of Congress and our committees of jurisdiction up to date as 
information became available. While my written testimony 
provides an overview of our findings to date, I am committed to 
keeping you informed as our review continues.
    Immediately upon learning of the allegations of misconduct, 
I directed Secret Service supervisory personnel in Cartagena to 
initiate an investigation and conduct preliminary interviews of 
any Secret Service employee alleged to be involved in this 
incident. Once the preliminary interviews had taken place, I 
ordered all 11 people alleged to be involved in misconduct to 
immediately return to the United States.
    The prompt removal of these individuals enabled us to make 
necessary replacements and adjustments to the staffing plan in 
advance of the President's arrival in Cartagena. On Saturday, 
April 14, the morning after their return to the United States, 
these 11 individuals were interviewed by our Office of 
Professional Responsibility (RES), which acts as our agency's 
internal affairs component. At the conclusion of these 
interviews, all 11 individuals were placed on administrative 
leave, their security clearances were suspended, and all of 
their equipment was surrendered pending the outcome of this 
investigation. As the investigation progressed, a 12th person 
was implicated. At this point, administrative action has been 
taken relative to all 12 individuals.
    In addition, during the course of our internal 
investigation, we had one individual self-report an incident 
unrelated to the misconduct that occurred at the El Caribe 
Hotel. This individual, too, has been placed on administrative 
leave pending the investigation and their clearance has been 
suspended.
    During the course of the investigation, we confirmed that 
none of the 12 individuals had received a briefing regarding 
their protective assignment prior to the misconduct taking 
place. We also confirmed that none of the 12 individuals had 
any sensitive security documents, firearms, radios, or other 
security-related equipment in their hotel room.
    Since the beginning of this investigation, we have been 
transparent and forthcoming with the Department of Homeland 
Security's Office of Inspector General (OIG). I have instructed 
our Office of Professional Responsibility to cooperate fully 
with DHS Acting Inspector General Edwards as his office 
conducts its own comprehensive review of the matter.
    As I mentioned at the beginning of my statement, while the 
overwhelming majority of the men and women who serve in our 
agency exemplify the highest standards of professionalism and 
integrity, I want to ensure that this type of misconduct that 
occurred in Cartagena, is not repeated. As a result, a number 
of enhancements to existing codes of conduct, in addition to 
some new policies, have been put in place as detailed in my 
written statement.
    I have also established a Professionalism Reinforcement 
Working Group to look at the efficacy of our employment 
standards, background investigations, disciplinary actions, 
ethics training, and all related policies and procedures. 
Director John Berry from the Office of Personnel Management 
(OPM) and Director Connie Patrick from the Federal Law 
Enforcement Training Center are co-chairs of this group.
    I am confident that this review will provide us with an 
objective perspective on our organizational practices, 
highlighting both areas where we excel and identifying areas 
where we may improve.
    The U.S. Secret Service is an organization that maintains 
deep pride in the work it does on behalf of our Nation. 
Throughout our 147-year history, the agency has demanded 
service with honor and distinction by its agents, officers, and 
administrative professional and technical staff. All employees 
are expected to adhere to the highest standards of personal and 
professional integrity and recognize that the success of our 
agency's mission depends on the strong character and sound 
judgment of our people.
    One of the greatest privileges I have is swearing in new 
agents and officers. It gives all of us a tremendous sense of 
pride to witness a new generation take that same oath we took 
many years ago. That pride comes for all of us from being part 
of a special organization with a history of dedicated people 
who serve our country honorably.
    Over the past several weeks, we have been under intense 
scrutiny as a result of this incident. To see the agency's 
integrity called into question has not been easy. Through it 
all, the men and women of the U.S. Secret Service have 
demonstrated professionalism and integrity in their daily work.
    Just this past weekend, the agency successfully completed 
security operations for the G-8 in Maryland and the NATO 
summit, which included the gathering of more than 40 world 
leaders from four continents, in the city of Chicago. 
Concurrent with these events, we continue the planning for 
similar large-scale security operations for the Republican 
National Convention in Tampa, Florida, and the Democratic 
National Convention in Charlotte, North Carolina, later this 
summer. All of this comes on top of exceptional work carried 
out every day in field offices around the country and 
throughout the world.
    Today, as I testify before you, the men and women of this 
organization are protecting world leaders, presidential 
candidates, former presidents, numerous embassies in 
Washington, DC, conducting criminal investigations, keeping 
American citizens and financial institutions safe from 
financial fraud, and preparing for the Presidential 
Inauguration. They are overall making a positive impact on 
their community.
    I am grateful to them for what they do every single day, 
and my sincere hope is that they are not defined by the 
misconduct of a few but, rather, by the good work that they 
perform with character and integrity.
    Thank you again for the opportunity to be here today. I 
will be more than happy to answer any questions you may have.
    Chairman Lieberman. Thank you, Director Sullivan.
    And now the Acting Inspector General of the Department of 
Homeland Security, Charles Edwards.

 TESTIMONY OF CHARLES K. EDWARDS,\1\ ACTING INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Edwards. Good morning, Chairman Lieberman, Senator 
Collins, and distinguished Members of the Committee. I 
appreciate this opportunity to update you on the Inspector 
General's actions to review and monitor the U.S. Secret 
Service's investigation of the incident in Cartagena, Colombia, 
involving Secret Service employees' interactions with Colombian 
nationals on April 11 and 12. Our role began almost immediately 
after the incident when, on April 13, Director Sullivan and I 
discussed the events. We have since remained in regular 
contact. Director Sullivan has repeatedly stated to me his 
commitment to conduct a thorough investigation. His actions so 
far have demonstrated that commitment, and the Secret Service 
has been completely transparent and cooperative with OIG 
inspectors and investigators since our team started its work.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Edwards appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    On April 26, I instructed our Assistant IG for Inspections 
and the Acting Assistant IG for Investigations to review the 
Secret Service's handling of its internal investigation 
regarding the incident in Cartagena. The next day, our 
Assistant IG for Inspections and the Acting Deputy Assistant IG 
for Investigations met with officials from Secret Service's 
Office of Professional Responsibility (RES), which is 
conducting the internal investigation, and briefed them on the 
objectives of our review.
    Our Assistant IG for Inspections has assembled a nine-
person review team, led by a veteran chief inspector and 
augmented by three OIG criminal investigators.
    On May 2, this team met with RES officials and began part 
one of our three-part review. In part one, we are evaluating 
the adequacy of Secret Service's response to the incident in 
Cartagena; the adequacy of the scope, methodology, and 
conclusions of its internal investigation; and the sufficiency 
of the corrective actions already implemented or planned.
    We are in the process of interviewing Secret Service 
personnel responsible for coordinating the agency's response to 
the incident and conducting its investigation as well as 
personnel within the Office of the Director, the RES, those in 
charge of field operations, and the office responsible for 
security clearances.
    We will review all records, documents, and other materials 
related to the Secret Service's internal investigation, 
including RES's standards for inspection and investigation. We 
will review protocols for advance teams, the Secret Service 
Code of Conduct, and disciplinary processes and records.
    Our field work for part one of our review is currently 
taking place in Washington, DC. We have started meeting with 
RES staff members who interviewed the Secret Service employees 
who were in Cartagena at the time of the incident. We have also 
started reviewing the records that resulted from RES interviews 
of nearly 200 Secret Service employees who were associated with 
the President's visit, as well as 25 employees of the Hilton 
and El Caribe hotels in Cartagena.
    Besides, we plan to interview Special Agent-in-Charge Paula 
Reid, who had on-site responsibility for the Secret Service's 
Cartagena detail. We also plan to interview Director Sullivan.
    We will review the Secret Service's report on its internal 
investigation as soon as it becomes available. Contingent upon 
our receipt of that report, our goal is to complete the first 
phase of our review and report our findings by July 2.
    Immediately thereafter, we will begin part two of our 
review, during which we will determine whether certain 
workplace conditions and issues have promoted a culture within 
the Secret Service that could have contributed to the Cartagena 
incident. We will examine the Secret Service's recruiting, 
vetting, and hiring practices. We will also examine the Secret 
Service's Equal Employment Opportunity and Merit System 
Protection Board cases, communications within the agency, its 
administration of awards and discipline, training, and any 
other programs that might cast light on the organizational 
culture of the Secret Service. This portion of our work will 
include site visits to the Miami and other field offices.
    The third phase of our review will examine the Memorandum 
of Understanding (MOU) between the Secret Service and our 
office. We will evaluate changes in both Secret Service and 
Office of Inspector General investigative capabilities since 
the MOU was created in 2003 and determine whether changes are 
necessary. It is likely that we will conduct this phase 
concurrently with phase two. We will report our findings on 
both phases two and three later this year.
    Finally, I would like to stress that the value of the 
Secret Service's efforts to date in investigating its own 
employees should not be discounted. It has done a credible job 
of uncovering the facts and has taken swift and decisive 
action.
    Mr. Chairman, this concludes my prepared statement, and I 
would be happy to answer any questions that you or the 
Committee Members may have. Thank you.
    Chairman Lieberman. Thanks very much, Mr. Edwards, for your 
testimony and for what you have been doing.
    We will start with 7-minute rounds of questions for each of 
the Senators here.
    Director Sullivan, you have told us that you were shocked 
by the behavior of the 12 agents in Cartagena, and I believe 
you were. And you have felt confident that their behavior was 
not a common occurrence within the ranks of the Secret Service.
    I wanted to ask you, after reading the Washington Post 
story today, whether you have that same confidence. In other 
words, can you give us your first reaction to what is contained 
in that story? And, obviously, most damningly, ``Current and 
former agency employees say that sexual encounters during 
official travel had been condoned under an unwritten code that 
allows what happens on the road to stay there.''
    Mr. Sullivan. Thank you, Senator. I absolutely feel the 
same way about the men and women of the U.S. Secret Service and 
the culture after reading that article. When I read that 
article, it cited numerous anonymous sources. I guess what I 
would ask is that if people do have information, I want them to 
come forward with that information, either to our Office of 
Professional Responsibility or to the DHS IG. But the thought 
or the notion that this type of behavior is condoned or 
authorized is just absurd, in my opinion. I have been an agent 
for 29 years now. I began my career for 7 years in Detroit. I 
was on the White House detail twice. I have worked for a lot of 
men and women in this organization. I never one time had any 
supervisor or any other agent tell me that this type of 
behavior is condoned. I know I have never told any of our 
employees that it is condoned.
    So I feel as strongly now as I did before I read that 
article.
    Chairman Lieberman. Mr. Edwards, let me ask you, because at 
least some significant part of the conclusions drawn--again, 
generally without attribution--in the Washington Post article 
today are based on conversations with some of the 12, perhaps 
all of the 12 agents involved in the Cartagena scandal. Are you 
intending to interview any or all of them about what happened?
    Mr. Edwards. Thank you, sir. Yes, we are going to be 
interviewing all 12. In fact, this afternoon, we are going to 
be interviewing two of those individuals.
    Chairman Lieberman. Well, that is very important and very 
encouraging news because obviously you are conducting a formal 
Inspector General investigation, and, therefore, if they repeat 
the allegations they have made to the newspaper, presumably you 
will find out whether they are credible or not and report to us 
and to the public as your investigation goes on.
    Director Sullivan, let me ask you, with respect to your own 
investigation thus far and the individuals alleged to have 
behaved improperly, were they asked whether they had engaged in 
similar conduct on other occasions?
    Mr. Sullivan. Yes, sir, they were.
    Chairman Lieberman. And what was their answer?
    Mr. Sullivan. Their answer was they had not.
    Chairman Lieberman. They had not. And just for the record, 
were they under oath when they were interrogated?
    Mr. Sullivan. I believe they all gave a signed oath to 
that, but I will have to get back to you on that, Senator. I am 
not sure if they were under oath.
    Chairman Lieberman. I would appreciate that.
    I know they all were offered the opportunity to take a 
polygraph test, and it would be of interest to me whether 
during that test they were also asked whether they had ever 
been involved in similar behavior.
    Mr. Sullivan. Yes, sir, and there are some--we did use 
every investigative tool we had, including polygraph 
interviews, talking to other people, looking at records, and 
thus far, we have not found that this type of behavior was 
exhibited by any of these individuals before.
    Chairman Lieberman. Were the Secret Service personnel 
questioned during your own investigation asked whether they 
considered their conduct acceptable for some reason?
    Mr. Sullivan. Sir, this was a question an awful lot of us 
have asked ourselves over the last month and a half, and I 
believe when many of these people were interviewed, I do not 
think they could explain why they exhibited the behavior that 
they did.
    Chairman Lieberman. For instance, some people have tried to 
explain and understand why such risky, really irresponsible 
behavior would be carried out by Secret Service agents on 
assignment and have said perhaps they were influenced by the 
fact that prostitution was legal in Colombia. I take it that 
would not matter so far as the Secret Service is concerned 
because whether prostitution was legal or not--they, by their 
behavior, would run the risk of compromising the security of 
the President of the United States because who knows who they 
are with on those occasions.
    Mr. Sullivan. Senator Lieberman, absolutely. You know, 
there is no excuse for that type of behavior from both a 
conduct perspective and from a national security perspective. 
That type of behavior was just reckless.
    Chairman Lieberman. Understood. Over the past 5 years, 
based on our review of the disciplinary records that we have so 
far gone over, which you provided to the Committee in response 
to our question, there appear to have been five cases that are 
directly relevant to what happened in Cartagena and, therefore, 
potentially noteworthy: Three allegations involving 
inappropriate or undocumented contact with a foreign national 
woman, one allegation of contact with a prostitute, and one 
allegation of nonconsensual sex.
    Director Sullivan, are you aware of these cases? And if so, 
can you tell us what was involved and how the agency handled 
them?
    Mr. Sullivan. I believe so, sir. First of all, any type of 
misconduct we take extremely seriously and we investigate it to 
the end limit. The one I believe you are talking about with the 
nonconsensual sex was investigated by law enforcement, and 
after doing an intense investigation on that, decided not to go 
forward with any charges on that one.
    Chairman Lieberman. And may I ask, if it is appropriate, 
whether the complainant was somebody within the Secret Service, 
in other words, a fellow employee, or someone outside, a 
citizen?
    Mr. Sullivan. Somebody who was outside the organization, 
Senator. The other three with the foreign national contact, 
again, all of those were investigated and the appropriate 
administrative action was taken on those three.
    Chairman Lieberman. Did any of those have characteristics 
similar to what happened in Cartagena, that they were women or 
prostitutes that they picked up.
    Mr. Sullivan. No, nothing to do with prostitution. I 
believe these were women that they had contact with, but 
nothing like this situation we are referring to now.
    Chairman Lieberman. Were these long-term relationships, to 
the best of your understanding, or just people they met when 
they were on assignment in a foreign location?
    Mr. Sullivan. At least one of them, I believe, Senator, was 
somebody who they had met and they continued with the contact 
via email.
    Chairman Lieberman. And, finally, what about the one case 
that we have seen in the record of contact with a prostitute, 
which I gather occurred right here in Washington?
    Mr. Sullivan. Yes, sir. Back in 2008, an individual was 
involved with prostitution and was separated from our agency a 
month later.
    Chairman Lieberman. Was that individual on duty at that 
time?
    Mr. Sullivan. Yes, sir.
    Chairman Lieberman. And I take it this was not somebody he 
met during the course of his work, but he was caught in a 
sting. Is that correct?
    Mr. Sullivan. Yes, sir. As I understand it, he solicited an 
undercover police officer.
    Chairman Lieberman. We will continue to talk about those 
cases. Thanks for being so responsive. My time is up.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Director Sullivan, it is my understanding that all of the 
Secret Service personnel involved, with the possible exception 
of one agent who may have used another agent's name, registered 
the women at the hotel's front desk using their real names and 
using the women's real names. Is that accurate?
    Mr. Sullivan. Yes, it is, Senator.
    Senator Collins. That fact made your investigation easier 
in terms of tracking down the women, but it also seems to 
reinforce the claim that this kind of conduct has been 
tolerated in the past. In other words, it suggests to me that 
the agents were so unconcerned about being caught or about the 
impropriety of their actions that they did not even seek to 
conceal it.
    What is your reaction? Do you think that the fact that they 
followed the rules of the hotel in registering the women, they 
used their real names, they used the women's real names, 
suggests that they were not really worried about being caught?
    Mr. Sullivan. Senator, I have tried to figure this out for 
a month and a half what would ever possess people to exhibit 
this type of behavior. Again, I will tell you that I do not 
think this is indicative of the overwhelming majority of our 
men and women, as you mentioned before, Senator. But I just 
think that between the alcohol--and, I do not know, the 
environment--these individuals did some really dumb things. And 
I just cannot explain why they would have done what they would 
do, but I will tell you that I do not believe they did it 
because they believed that this type of behavior would be 
tolerated. We have a zero tolerance for this type of behavior. 
But I cannot figure out why they did what they did.
    Senator Collins. What troubles me about this is, again, I 
will go back to the fact that this was not a case where these 
12 men together were out on the town in the same club bringing 
back women from that one source. They went out on the town in 
small groups, in some cases two or three or individually; yet 
each one of them comes back to the hotel, makes no attempt to 
conceal the fact that they are bringing foreign national women 
into the hotel, actually register them at the front desk, they 
do not try to conceal their actions in any way. That suggests 
to me that they were not worried about being caught, that they 
did not think there would be consequences if they were caught. 
Otherwise, wouldn't you expect that they would try to conceal 
their actions?
    Mr. Sullivan. Senator, when I was first apprised of this 
situation, I was dumbfounded--that people on an assignment 
protecting the President in a foreign country could have acted 
in this manner, it was a very easy decision for me to say we 
need to bring them back here. And, again, Senator, I have no 
excuse for those actions. All I can tell you is that we acted 
quickly and brought them back here and initiated our 
investigation.
    Senator Collins. Let me turn to another but related issue. 
When you discovered what had happened, you updated some of the 
training manuals. In late April, you issued a directive that 
clearly says that the laws of this country apply to Secret 
Service personnel while abroad. And I give you credit for 
issuing that to make it crystal clear. But wasn't your 
guidance, as I look through your adjudication guidelines and 
the eligibility for access to classified information, isn't it 
already pretty clear in those guidelines that this kind of 
behavior would not be acceptable?
    Mr. Sullivan. Senator, absolutely. We put these new 
enhanced guidelines out. I have been accused of being draconian 
for putting them out, and maybe they are. I think, again, I go 
back to the overwhelming majority of our men and women. I do 
not think that our men and women need these guidelines because 
we have men and women of character and integrity. But what I 
wanted to make sure is even if there is one individual out 
there who just did not understand it, we wanted to make sure we 
reached these individuals.
    But you are absolutely right. There are adjudicative 
guidelines out there. People are aware of what those 
adjudicative guidelines are. We are a professional 
organization. We travel around the world. Over the last 6 
years, we have done 37,000 trips around the world, and we have 
had no situation like this one before. And, again, I am 
confident this is not a cultural issue, this is not a systemic 
issue with us. We make decisions every single day. Our 
employees make some really critical decisions that, again, the 
overwhelming majority of the time they make good decisions. On 
this particular trip, we had some individuals who made very bad 
decisions. That is why it is very important for us to have a 
strong Office of Professional Responsibility and to have a good 
relationship with the Inspector General, because when those 
individuals, which are in the minority, make bad decisions, 
when they make bad choices, when there is misconduct or 
misbehavior, we are going to act appropriately.
    Senator Collins. I guess the point I was trying to make is, 
as I read these guidelines, it specifically refers to engaging 
in any activity that is illegal in that country or that is 
legal in that country but illegal in the United States. So 
there is no doubt that officially this kind of behavior was 
already prohibited prior to your issuing the directive on April 
27, correct?
    Mr. Sullivan. That is correct, Senator.
    Senator Collins. Mr. Edwards, in just the few seconds I 
have left, are you conducting an independent investigation of 
what occurred in Colombia? Or are you simply reviewing the 
investigation that Director Sullivan and his staff are 
conducting?
    Mr. Edwards. Thank you, Senator. I am deeply troubled, just 
as you are, and we are doing a comprehensive review. In that 
what I mean is we are reviewing the investigation that is done 
by Secret Service. At the same time, we are also doing some 
independent interviews ourselves. We also want to talk to the 
people who are interviewing the personnel. We have done 23. We 
have also sat in on about six of the interviews that were 
conducted.
    In order for us to get a comprehensive report--I do not 
have the personnel to go interview all 200 of them, but we are 
doing a random sampling of them to make sure that our review 
and investigation is independent and transparent.
    Senator Collins. Thank you.
    Let me just say, Mr. Chairman, that I think it is critical 
that the IG do a completely independent investigation, not just 
a review of the agency's investigation. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Collins. I agree with 
you. I know this will require a commitment of personnel by you, 
Mr. Edwards, but I think it is so important to get to the 
bottom of this event, to get to the truth of it so that we can 
find out exactly what happened. And the aim here is, of course, 
to restore confidence to the Secret Service, which most of 
whose members obviously deserve it by their work. So I agree 
with that.
    The Members of the Committee, as is our custom, will be 
called in order of appearance, and in that regard, Senator 
Brown is next.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you, Mr. Chairman.
    Director Sullivan, thank you. Mr. Edwards, thank you for 
attending.
    Mr. Sullivan, listening to your testimony, you said you 
were not aware that this has happened before, and that is 
evidenced by some of the investigations you have done in your 
long history in the Secret Service. Is that correct?
    Mr. Sullivan. Yes, Senator.
    Senator Brown. And you are still trying to figure it out, 
is something you also said. Is that correct?
    Mr. Sullivan. As far as figuring this type of behavior----
    Senator Brown. Yes, the most recent event.
    Mr. Sullivan. Yes, sir.
    Senator Brown. And you are making changes, doing ethics 
training, changing policy. Is that also correct?
    Mr. Sullivan. Yes, sir.
    Senator Brown. And you have said many times a majority of 
the folks serving in the agency--and I would agree--do 
wonderful work. They have many missions. They have served with 
great pride and resourcefulness over, I believe, 147 years of 
service. Is that also a fair statement?
    Mr. Sullivan. Yes, Senator.
    Senator Brown. I know you have set out new guidelines, and 
you indicated on your own, you just said that they were 
draconian, as a matter of fact, and you hate to do them, but 
you feel it is necessary. And I would ask, do you also trust 
the men and women now that are serving, notwithstanding this 
individual incident? Do you trust them in their sacrifice and 
service in the job that they are doing right now?
    Mr. Sullivan. Yes, sir.
    Senator Brown. The reason I am asking these questions is 
because I know there is potentially a new policy to send a GS-
15 supervisor from the Office of Professional Responsibility, 
which you indicated also that is a member of the internal 
affairs division of the agency, to go and basically baby-sit 
these agents when they are going overseas and doing their duty. 
So I am a little bit confused as to why we would be sending a 
$155,000 additional person to basically baby-sit people that--
you say this has not happened before, you have changed policy, 
you have made draconian changes, and you trust the men and 
women, yet we are going to be sending somebody to oversee that 
they are, in fact, following your policies. I am not quite sure 
how that makes financial sense, and re-establishes the so-
called trust that you have in the agency. Could you answer 
that, please?
    Mr. Sullivan. Yes, sir. And, again, I was accused of being 
draconian for putting these out, but we did feel that it was 
important to get these out.
    As far as the GS-15 from the Office of Professional 
Responsibility going out, he or she will have an assignment. I 
have heard them referred to as a ``baby-sitter.'' They are not. 
They are there to be a working agent. However, one of the 
things we did find on this particular trip was that when we did 
have this situation we had to look at, the person we needed to 
rely on was the special agent in charge of the Miami Field 
Office, who did an outstanding job. And my preference would 
have been for her to continue to work on the upcoming visit. We 
do need to have supervision on these type of----
    Senator Brown. Yes, but you already have supervision. You 
have agents, you have agents in charge of agents, and you have 
other agents in charge of those. You already have a chain of 
command, and it seems like you are now going to insert an 
internal affairs person to basically--you can call it a ``baby-
sitter,'' or you can call it somebody just overseeing what is 
happening. I am just going on your testimony where you said you 
have made changes, you trust these people, this is an 
aberration, it is not something that habitually happened, you 
had no knowledge, and yet we are going to spend the time and 
effort and are going to take somebody away from doing another 
job to be there just in case something like this happens. I am 
wondering if you think it is a little bit overkill.
    Mr. Sullivan. No, Senator, and maybe I am doing a bad job 
of explaining this. We have a group of agents who go out, and 
they are called a jump team. On this particular jump team, we 
had 53 agents. This jump team was led by two GS-14s who were 
two of the individuals who were involved in this incident.
    What we have done now is we have replaced those two GS-14 
supervisors with two GS-15 supervisors. One GS-15 is going to 
come from the field, more than likely will be a GS-15 special 
agent in charge of a field office, and then the other one will 
be a GS-15 from our Office of Professional Responsibility. They 
are not there to be a baby-sitter. They are going to have an 
assignment. But if a situation does come up, they will be there 
to resolve that situation.
    Senator Brown. Is this on every mission that we do now?
    Mr. Sullivan. This will be for every foreign trip.
    Senator Brown. For every foreign trip. And how many foreign 
trips do we actually conduct per year?
    Mr. Sullivan. Sir, I would have to give you the numbers for 
that.
    Senator Brown. Around, approximately? Is it 10? Is it 100? 
Is it 200 or 500? Give me just an approximation.
    Mr. Sullivan. So far this year we have done about 200 trips 
or so, but this is only for a presidential or a vice 
presidential visit.
    Senator Brown. And how many of those?
    Mr. Sullivan. Sir, I would have to get you the number.
    Senator Brown. If you could because, once again, you are 
restructuring--you are changing the entire structure, putting 
higher paid people, GS-15s in position. They should be doing 
the job regardless of the GS level that they are at. And then, 
changing and having someone there to oversee and be there, an 
agency that you trust, I am still not quite----
    Mr. Sullivan. Senator, I do trust our people, but we are 
talking about protecting the President here, and I believe 
supervision is very important. And, clearly, on this particular 
trip, supervision was lacking. And if we have to put GS-15s on 
a particular trip, then that is what we are going to do.
    Senator Brown. OK.
    Mr. Sullivan. We are going to see how it goes, and if we 
believe we can go back to the way we had it before, we will do 
that. But the one thing I want to make clear, these people are 
not there to baby-sit, and these GS-15s from our Office of 
Professional Responsibility are going to be the individuals who 
are going to be giving an ethics briefing at the beginning of a 
trip and a Code of Conduct briefing on a trip.
    Senator Brown. How often do they get the ethics briefings?
    Mr. Sullivan. They get those throughout their career during 
training, and there is an annual requirement----
    Senator Brown. So an annual ethics briefing, and how about 
polygraphs every 10 years, I understand?
    Mr. Sullivan. No. They get a polygraph at the beginning of 
their career when they come on, and then after that we do 5-
year background updates. Some of our individuals, depending on 
what type of position they hold, either internal or external to 
the organization, they get polygraphs throughout their career 
as well.
    Senator Brown. And what is the average, about every 5 or 10 
years.
    Mr. Sullivan. Well, not all of our employees get polygraphs 
every 5 years.
    Senator Brown. How about these particular individuals that 
would have been doing the job that they were doing? How often 
would they get a polygraph?
    Mr. Sullivan. Unless they are in a specialized position 
where that was required, they would not have taken another 
polygraph once they got their initial polygraph.
    Senator Brown. So it could have been 10 or 20 years for 
some of these people.
    Mr. Sullivan. Yes, sir.
    Senator Brown. Do you think maybe we should review that 
policy and have folks----
    Mr. Sullivan. That is part of what we are looking at now.
    Senator Brown. Do you think we would have actually found 
out about this if we did not have an argument regarding price?
    Mr. Sullivan. I do think we would have, Senator.
    Senator Brown. How do you think we would have found out?
    Mr. Sullivan. I think that somebody on this jump team would 
have reported that.
    Senator Brown. Well, if, in fact, you believe the 
Washington Post article, this is something that has been 
happening for quite a while, and yet you have never heard of 
it. We are getting two different stories. So I would hope that, 
Mr. Edwards, in your investigation we can find out what the 
truth is and deal with the people that are not adhering to the 
policy and deal with it accordingly. I agree with you, Mr. 
Sullivan. I think there are some amazing men and women serving 
in our Secret Service. You know, taking a bullet for the 
President is the ultimate form of sacrifice that an agent could 
make, and protecting our President and Vice President is the 
most important thing that any individual in our government can 
do, quite honestly. And I know there are some fine ones out 
there, and, unfortunately, I agree with the Chairman, the image 
is stained. And that is why I also appreciate your appearances 
before us and your efforts to be open and forthright. I thank 
you for holding this hearing, Mr. Chairman.
    Mr. Sullivan. Senator, if I may, I would just like to 
respond back to the Washington Post article. Again, that 
referenced numerous anonymous sources there, and you had talked 
about waste and mismanagement earlier. You know, there was an 
allegation at the beginning of this about misconduct in El 
Salvador, and a lot of people took that and ran with it because 
it was reported on the news. I took that allegation very 
seriously, and I sent our Office of Professional Responsibility 
down to El Salvador for almost a week.
    We spent thousands of dollars to send those people down 
there. We interviewed 28 to 30 people. We went to four hotels 
where our agents stayed. We talked to every hotel manager. We 
talked to every security director for those hotels. We talked 
to seven or eight of the contract drivers who our agents used. 
We talked to the police chief. We talked to the owner of a 
nightclub where this incident was alleged to have occurred. We 
were unable to prove any of these allegations. We spoke to the 
Regional Security Officer (RSO) who conducted his own 
investigation down there.
    So all I would say is that when you read about it in the 
paper from an anonymous source, it is very difficult for us to 
investigate that type of an allegation. I would say, again, we 
would like to know who, when, where, and why, and the names of 
people, as well as who these people are who are condoning it. 
And I will just tell you, sir, that is not the organization I 
know that we would condone such behavior.
    Chairman Lieberman. Thank you, Director. Thank you, Senator 
Brown. Senator Johnson, you are next.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman. Director Sullivan 
and Inspector General Edwards, thanks for testifying today.
    First of all, I have great respect for the Secret Service, 
and this is an incredibly sad episode, and this hearing is all 
about how do you restore credibility. I am also sad to say--I 
agree with Senator Collins--based on the facts of this case, it 
is hard to believe that this is just a one-time occurrence. I 
wish I could believe that, but it is just hard to believe.
    I have a couple of questions. Let us go back to the 
polygraphs that Senator Brown was asking about.
    I think I heard you earlier say that the polygraphs were 
offered to these agents. Was that not a requirement?
    Mr. Sullivan. Sir, I believe we ended up doing about 14 or 
15 polygraphs.
    Senator Johnson. But, again, was it not a requirement?
    Mr. Sullivan. Sir, they have the option to refuse a 
polygraph.
    Senator Johnson. What kind of constraints did you find in 
your investigation? What constraints are there in trying to get 
to the facts of this based on just worker protections?
    Mr. Sullivan. Well, sir, going back to the polygraph, in 
some cases, the polygraphs helped a couple of people keep their 
job, and those particular individuals who refused to take the 
polygraph, we were able to come up with other information that 
refuted what they were saying. So for us not giving a polygraph 
did not really impact the way this investigation was conducted 
because we were able to prove the allegation without using the 
polygraph.
    Senator Johnson. Again, as we talked in our closed-door 
briefing, my concern is that additional information starts 
coming out, other stories come out month after month after 
month, and we need to get this behind us. I would imagine you 
have the exact same concern.
    In your investigation, what are you doing to make sure that 
we do not hear of another instance 2 or 3 months out? 
Specifically, what are you doing to ensure that does not occur 
other than just your belief that you have faith in your agents?
    Mr. Sullivan. Well, sir, we put together this 
Professionalism Reinforcement Working Group with Director Berry 
and Director Patrick. The Inspector General is going to be 
taking a look at our investigation. Last June, a governmentwide 
Viewpoint survey, when asked if they would report an incident 
of unethical behavior, I believe nearly 60 percent of our 
employees responded that they would report it. We want to 
improve that number until it is 100 percent. We want to 
encourage our employees that if they see unethical behavior or 
misconduct, we want that to be reported to us.
    Senator Johnson. Forty percent is a very high percentage 
that would not report. I guess that is my concern when you hear 
the story of ``what is done on the road stays on the road.'' My 
guess is that within the Secret Service there is a pretty high 
level of esprit de corps, possibly even a code of silence. And 
so barring utilization of polygraphs that are required, how do 
you really get to the bottom of this?
    Mr. Sullivan. Sir, I go back to leadership, that the 
leadership that we have on these trips, the leadership that we 
have in our organization, that they encourage our people and 
make sure that people know that there is not going to be 
retribution or that there is not going to be any negative 
impact for them to report this type of behavior.
    Senator Johnson. But you had leadership on these trips, and 
these things occurred. So, again, how do we get to the bottom 
of it? Is there some mechanism where we can require polygraphs, 
I hate to say it, of the 7,000 members of the Secret Service to 
actually get this episode behind us.
    Mr. Sullivan. Sir, one of the things that we have looked at 
is, do we need to increase the use of polygraph. We have a very 
aggressive and a very good polygraph program. All of our agents 
are polygraphed when they first come on the job. We do 5-year 
updates for every single employee that we have. Every employee 
we have maintains a top security clearance. But we are taking a 
look at further use of polygraph.
    Senator Johnson. What questions specifically in these types 
of episodes would be asked in a polygraph test?
    Mr. Sullivan. I think that is something we would have to 
take a look at. There would be two different polygraphs we are 
talking about here. There would be the national security 
polygraph and then there would be the character issue 
polygraph. And for each one there would be two or three 
relevant questions that would be looking for our polygraphers 
to ask the employees.
    Senator Johnson. So in the polygraphs that were 
administered voluntarily, was a more general question asked or 
were only questions asked related to this specific episode? In 
other words, did you ask those individuals that were 
polygraphed, ``Have you ever participated in this type of 
behavior in the past?''
    Mr. Sullivan. That type of question I believe was asked in 
the pre-test, but, again, sir, I would be more than happy to 
get you answers to the exact questions that were asked.
    Senator Johnson. I would like to know whether that question 
was asked and whether the question was also asked, not only 
under oath but also in the polygraph, ``Are you aware of any 
other type of behavior by somebody else within the service?''
    Mr. Sullivan. We will be happy to get that for you.
    Senator Johnson. To me, those are the types of questions 
that really do need to be asked almost universally if we are 
going to get to the bottom of this.
    Mr. Sullivan. OK.
    Senator Johnson. In terms of taking disciplinary action, up 
to and including discharge, do you feel constrained in your 
employment policies of actually being able to take the 
necessary steps?
    Mr. Sullivan. No, sir. I believe we did a very swift and 
comprehensive investigation, and we took the appropriate action 
when we felt that we had enough information to take that 
action.
    Also, not only in this type of an investigation but any 
investigation we do, when it comes to an employee, we want to 
make sure that we protect the rights that they have. But, 
again, we want to make sure that whatever decision we make is 
going to be the right one and it is one that cannot be refuted.
    Senator Johnson. We have had a number of agents retire but 
now are trying to get back in the Secret Service or they are 
challenging the dismissal. What are the numbers and what is the 
status on that?
    Mr. Sullivan. Right now, our numbers contradict what was in 
the Washington Post article. We have two employees who had 
originally said that they were going to resign that have now 
come back and said that they are going to challenge their 
resignations. And so now we will look to revoke their security 
clearance.
    Senator Johnson. Well, I am basically out of time. Thank 
you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Johnson. Senator 
Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman, and thank you, 
Senator Collins, for holding the hearing and, more importantly, 
for being on top of this situation from the start. I know that 
you share the concern of our colleagues to be sure this is 
fully investigated and the necessary reforms are put into 
place. Thank you, Mr. Director, and the Acting IG for being 
here and for your testimony. And, Director Sullivan, thanks for 
your 29 years of service and for your willingness to take some 
swift actions and also to be transparent, as the Acting IG 
said, with him and to be honest with us up on the Hill as we 
have asked questions over these past few weeks.
    As is the case with the Chairman, I am a former protectee, 
and I was in a Cabinet level role as U.S. Trade Representative 
on a number of foreign trips where I had Secret Service 
protection. And earlier, Director Sullivan, you talked about 
the five core values of the service: Justice, duty, courage, 
loyalty, and honesty. And I will say that my experience is that 
the men and women who protected me exemplified those values. 
And it is precisely because of my high regard for the character 
and professionalism of those men and women and for the 
importance of the Secret Service--and really its central role 
in the continuity of our very governmental system--that I am so 
concerned about what happened and so deeply troubled by the 
incident that is the subject of this hearing today.
    We all have a role to fully investigate this as a result, 
and we all have a role to be sure that this kind of risky and 
unprofessional behavior does not occur again by putting in 
place new protocols to try to restore the trust and confidence 
of the American people.
    So my questions are really about, going forward, what do we 
do. Again, I think you took some appropriate, swift actions. I 
think it was appropriate to remove the Secret Service personnel 
from Colombia, as you did immediately. I think that some of the 
immediate actions you have taken with regard to this incident 
are appropriate. I have to agree with my colleagues that it may 
not be an isolated incident given the fact that there were 
supervisors involved among other aspects of this, and so I 
would like to talk about what should be done in the future.
    I have been interested in the discussion today about the 
guidelines that are currently in place, and it is my view that 
either because they are specifically written or because they 
are understood, it is not as if there were not adequate 
guidelines. I will read you from a couple of your guidelines. 
One is the Code of Conduct, which says that the Secret Service 
employees shall not engage in amoral, notoriously disgraceful 
conduct, or other conduct prejudicial to the government. 
Standards of conduct also specify that the absence of a 
specific published standard of conduct covering an act tending 
to discredit an employee or department does not mean such an 
act is condoned. So even if it is not specifically identified 
in terms of what happened in Cartagena, certainly it would fall 
into this general category.
    Also, under your rules of conduct with regard to security 
clearances, it says that ``Contact with a foreign national, if 
that contact creates a heightened risk of foreign exploitation, 
inducement, manipulation, pressure, or coercion, is 
inappropriate.'' The guidelines also warn ``against conduct, 
especially while traveling outside the United States, which may 
make an individual vulnerable to exploitation, pressure, or 
coercion by a foreign person, group, or country.''
    So it seems to me, you can write all the guidelines you 
want, but if the culture does not reinforce, again, the five 
core values we talked about and the integrity and 
professionalism that I certainly saw in my experience with the 
Secret Service, it will not be successful.
    So we have talked a little bit about the Professional 
Reinforcement Working Group. It seems like that is a good step 
forward. What else would you recommend, Director Sullivan and 
IG Edwards, in terms of looking from to ensure that this kind 
of an incident never happens again?
    Mr. Sullivan. Thank you, Senator. One of the things we did 
was to look backwards. We looked at our discipline over the 
last 5\1/2\ years, and when I look at that, it is under 1 
percent of our population is involved in some type of 
disciplinary action, and that just gives me reason to believe 
that this is not part of the culture, and being part of this 
organization for 29 years and never seeing anything like this 
before in my life, I just believe very strongly that this just 
is not part of our culture.
    Senator Portman. Director, how many personnel do you have?
    Mr. Sullivan. Close to 7,000.
    Senator Portman. And on this jump team, there were 53 
individuals, but how many U.S. Secret Service personnel were on 
the Cartagena trip in total?
    Mr. Sullivan. We had about 200 people on the trip. At the 
time of this situation we had about 175 people who were in 
Cartagena.
    Senator Portman. And how many foreign trips had the Secret 
Service been involved with? You talked about over 200 this year 
alone.
    Mr. Sullivan. Yes, sir, and over the past 7 years, we have 
done about 2,700 since----
    Senator Portman. Two thousand, seven hundred foreign trips?
    Mr. Sullivan. Yes, sir.
    Senator Portman. And this kind of an incident has not been 
reported before?
    Mr. Sullivan. No, sir. But, again, moving forward, I think 
that with the Professionalism Reinforcement Working Group, we 
are going to look at various areas. We have broken it up into 
three different areas. There is going to be a Subcommittee on 
Workforce Management, and we are going to take a look at how we 
hire, our performance management, accountability, discipline, 
and the security clearance process. We are also going to take a 
look at our operational environment and have the subcommittee 
look at our traditions, look at our operations, compare 
ourselves to other law enforcement and military organizations, 
take a look at the role of our high standards--that there is no 
margin of error within our culture--and look at our workforce 
programs, ombudsman programs, employee assistance program, and 
diversity program. And we are also going to take a look at our 
ethics communication training and professional development.
    We do want to ensure that the men and women of this 
organization are not just better but the best, and that is the 
goal of that subcommittee.
    Senator Portman. Well, thank you, Director Sullivan. My 
time has now expired. Again, I appreciate your 29 years of 
distinguished service, and, Mr. Edwards, I appreciate the way 
you have worked seamlessly with the Secret Service. I know you 
have a lot of other responsibilities at the Department of 
Homeland Security, including other law enforcement 
responsibilities. I am sure some of the best practices there 
are also helpful, as the Director has said in part of this 
review. Thank you for your testimony today.
    Mr. Sullivan. Thank you, Senator.
    Chairman Lieberman. Senator Portman, thank you. Senator 
Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you very much.
    Those of us who serve in the Senate are privileged to serve 
with a retired Navy admiral. His name is Barry Black. He is 
Chief of Chaplains, formerly from the Navy Marine Corps, and 
now the chaplain for the U.S. Senate. He oftentimes encourages 
those of us who are privileged to serve here to ask for wisdom, 
whatever our faith might be. And so we try to do that in 
different ways.
    As I was thinking about this hearing and preparing for this 
hearing, I actually took a few minutes to go back and read one 
of the most famous passages in the New Testament, from the Book 
of John, and the setting is one that I think most people will 
recall, where a woman had been accused of adultery, and she was 
being surrounded by a group of men. The man involved in the 
adultery was nowhere to be seen, but she was surrounded by a 
group of men who held stones in their hands. And Jesus was 
close by, and the Pharisee said to Jesus, Look, what do you 
think should happen to this woman? And He was bending down, 
writing stuff in the dirt, and He just kind of ignored them. 
And after a while they said, Jesus, we are talking to you. What 
do you think should happen to this woman? The laws of Moses say 
that she should be stoned and her life taken from her as a 
result of her sins.
    Jesus kept writing in the dirt, and all He said was, ``Let 
those of you who are without sin cast the first stone.'' That 
is all He said. And one by one, the men holding the stones from 
oldest to youngest dropped their stones and walked away. And 
the woman was left there standing in the middle of this circle, 
and the only person still there was Jesus. And He said to her, 
``Woman, where are your accusers?'' And she said, ``They have 
gone away.'' And He said to her, ``Your accusers have gone, and 
I am not going to accuse you either.'' But then He added, ``Go 
and sin no more.''
    Nobody here is going to lose their life because of what 
they did down in Colombia. They have lost their jobs. They have 
lost their reputation. They have harmed the reputation of a 
wonderful agency.
    How many men and women serve in the Secret Service today? 
Roughly how many?
    Mr. Sullivan. Senator, just under 7,000.
    Senator Carper. And if you go back in time, any idea how 
many tens of thousands might have served in the Secret Service?
    Mr. Sullivan. Tens of thousands. I do not have the exact 
number, but a lot of people have come before us who we have 
built this organization upon.
    Senator Carper. One indiscretion of the nature that has 
been reported in Colombia, one indiscretion is one too many. 
Eleven or 12 are 11 or 12 too many. And the folks who have done 
these things have not just ruined their careers, they helped 
spoil the reputation of the tens of thousands of people who 
have served and continue to serve in the Secret Service.
    Having said that, none of us is without sin, and the key 
here for us is to figure out what went wrong, to make sure that 
those who have misbehaved are punished, and then make sure that 
we have put in place the kind of policies and safeguards to 
ensure that this kind of thing does not happen again.
    Are you convinced, Mr. Edwards, that is what we have done?
    Mr. Edwards. Can you repeat your question again, sir?
    Senator Carper. The role here for us, and I think for you, 
and certainly for Mr. Sullivan, is to ensure that we have found 
out the facts, provided appropriate punishment for those who 
have misbehaved, and to put in place the policies and the 
safeguards to ensure that this kind of thing does not happen 
again. Are you satisfied with the steps that have been taken 
meet that test?
    Mr. Edwards. Absolutely, sir. I will make sure that we do a 
complete review and provide recommendations to Director 
Sullivan to implement and make sure that this never happens 
again.
    Senator Carper. What further needs to be done, and what is 
the appropriate role for the Congress?
    Mr. Edwards. I owe it to the Secretary and to Congress for 
me to do an independent review and be transparent and 
accountable with the recommendations and report to you what 
else can be done. I am still in the process of doing my review, 
so I do not have any findings yet.
    Senator Carper. Mr. Sullivan, could you just respond to 
those questions as well, please?
    Mr. Sullivan. Yes, sir. We cannot ignore what happened in 
Cartagena, but, again, I go back to the overwhelming men and 
women in this organization doing an outstanding job every 
single day. And my goal right now is to make sure that they 
know that we have confidence in them and that we believe in 
them and that we know that this is not indicative of their 
character.
    What I would ask is that we continue to get your support, 
and I appreciate the complimentary things that you have said 
about our men and women today. We have a very challenging year 
that we are in the middle of right now. As I mentioned to you, 
we just finished up the NATO summit and the G-8. But I would 
ask for your continued support. I would ask for you to continue 
to believe in what this organization is all about. And I would 
ask that you just continue to believe in us and know that we 
are going to do everything we can do to make sure that we 
rebuild our reputation and do the right thing for the people 
that we protect and serve.
    Senator Carper. I will just close with this. You just 
mentioned ``do the right thing,'' and some of the best guidance 
I ever received in my life is ``to figure out the right thing 
to do and just do it.'' Just do it consistently, not the easy 
thing, not the expedient thing, but to do the right thing. And 
I would just say to you and Mr. Edwards in your capacity to 
ensure that you do the right thing.
    The other thing I would say, all of us make mistakes. God 
knows I have. I am sure my colleagues have as well and will 
make others in the future. Having said that, some of the best 
advice I ever got was actually from my father who essentially 
said, talking about my work in life, he said, ``If it is not 
perfect, just make it better.'' And everything I do I know I 
can do better, and I think that is true of the behavior of all 
of us and it is certainly with the behavior of folks who work 
and have worked and will work in the future at the Secret 
Service. If it is not perfect, make it better. That should be 
our goal.
    Mr. Edwards. Thank you, Senator.
    Mr. Sullivan. Thank you.
    Chairman Lieberman. Thank you, Senator Carper.
    We will do a second round insofar as Members have 
additional questions.
    Would either or both of you like to take a 5-minute break, 
or are you OK to go forward?
    Mr. Sullivan. I am fine, Senator.
    Chairman Lieberman. Thanks.
    Inspector General, let me just ask you, if you have not 
said it already--maybe I missed it--generally speaking, what 
kind of time schedule are you putting yourself on? I know it is 
hard to do deadlines here, but you have three parts. Am I 
correct to say that your first focus is going to be the review 
and insofar as possible independent investigation of what 
happened in Cartagena?
    Mr. Edwards. Yes, sir. The first part, I need to look at is 
the investigation, how it was done, the scope and methodology, 
the questions asked, whether it is closed-ended or open 
questions, and look at it; and now, after listening to you and 
Senator Collins, for me to go back and redo all of the 200. 
Originally, I was planning on getting this done by July 2, but 
I am going to go back and revisit that because I truly want to 
try to come up with an independent investigation on the first 
part.
    The second part is looking at the culture. This misbehavior 
or this risky behavior, what is the cause for that? What is the 
type of corrective action that was taken? What kind of vetting 
process and ethics training was offered? So, to get an idea of 
that, I need to do a comprehensive inspection on that, and I 
plan to have that done by fall.
    Chairman Lieberman. So at this point, it is fair to say 
that if you do the kind of independent investigation of 
Cartagena that we are talking about, you are probably not going 
to be able to do it by early July, but hopefully you will have 
it by the end of the summer? We are not holding you to that, 
but is that a reasonable goal?
    Mr. Edwards. I am going to put all my additional resources 
and make sure that this is a top priority and get this done.
    Chairman Lieberman. Thank you.
    Mr. Edwards, in response to the questions that our 
Committee sent you, you indicated that you found in the IG case 
files some record of an incident, 10 years ago actually, where 
approximately five Secret Service agents were disciplined for 
partying, and here I am quoting, ``partying with alcohol with 
underage females in their hotel rooms'' while on assignment at 
the 2002 Olympics. And, of course, this is of significance as 
we try to determine whether there was further evidence of the 
kind of misconduct that occurred at Cartagena.
    Do you know at this point whether this is a credible 
report?
    Mr. Edwards. Thank you, sir. We received a hotline 
complaint on April 20. This was referring to the February 2002 
Winter Olympics in Salt Lake City. There were five Secret 
Service agents that were sent home after police responded and 
found them partying with alcohol with underage females in their 
hotel rooms while on assignment. This was investigated by the 
Secret Service at that time, and I think the outcome of that 
was many of them have left the agency now, but since we 
received a hotline complaint, I have an obligation to look into 
it. So we are looking into it.
    Chairman Lieberman. This is important. This actually came 
in relatively recently over the hotline that you maintain, 
which is an Internet hotline?
    Mr. Edwards. Yes, sir.
    Chairman Lieberman. You might want to mention what the 
address is. Do you know it offhand?
    Mr. Edwards. It is oig.dhs.gov.
    Chairman Lieberman. So you are beginning to investigate 
that.
    Director Sullivan, do you have awareness of that incident? 
I know you were not Director of the agency at that point.
    Mr. Sullivan. Yes, sir, as far as I know, there were three 
individuals who were involved in that particular incident. I 
believe that those individuals were gone within a very short 
period of time after that incident. Again, I go back to the 
fact that it does not represent the overwhelming majority of 
our people, but like any allegation that comes to our 
attention, we are going to investigate it, and we are going to 
take the appropriate disciplinary action.
    Chairman Lieberman. That leads me to ask this question. I 
assume from everything you have said that the seriousness of 
that behavior is not affected by the fact that it occurred 
within the United States as opposed to outside in Colombia, and 
it occurred presumably with young women who were not 
prostitutes, that the behavior was unacceptable for Secret 
Service personnel.
    Mr. Sullivan. Well, again, as I understand the allegation, 
it was underage individuals, and that would bring into account 
the seriousness of the allegation.
    Chairman Lieberman. In fact, probably in Utah it was a 
crime. I am not asking you to opine on that, but----
    Mr. Sullivan. Right. Senator, I have not looked at that 
case, and I would be more than happy to. And, again, we will 
cooperate fully with the IG.
    Chairman Lieberman. So leave this case during the 2002 
Olympics aside. Just to clarify, we are focused on these 
matters, unfortunately, because of what happened in Cartagena, 
Colombia, outside of the United States.
    Mr. Sullivan. Right.
    Chairman Lieberman. Am I correct in presuming that the 
Secret Service would be just as concerned if you found that 
agents on assignment somewhere here in the United States were 
bringing back women who were not foreign nationals but who they 
had just met somewhere to their rooms while on assignment 
protecting somebody?
    Mr. Sullivan. Yes, sir. I think anything that is going to 
compromise our mission we are going to be concerned. And, 
again, if we receive an allegation of that, we are going to 
investigate. We want our people to live up to the standards of 
our organization. And this was just handed to me by staff. I 
guess these women in the Utah case were under the age of 21, 
not under the age of 18. I am not sure what, if any, State-
specific legislation was there, but, again, I will be more than 
happy to get the particulars for you. But what I do know is 
that those employees were gone pretty quickly.
    Chairman Lieberman. But just to make the point, the concern 
that we have expressed, Senator Collins quite explicitly, and 
what we are worried about is that an agent with the 
responsibility to protect the President and Vice President 
could be compromised by being involved in a casual sexual 
relationship while on assignment on the road. So, ultimately, 
it does not matter whether it happens in Cartagena, Colombia, 
or Chicago, Illinois. True?
    Mr. Sullivan. That is correct, sir.
    Chairman Lieberman. Let me come to just a final question 
quickly. Senator Portman read from some of the Code of Conduct 
for the Secret Service, and then the general rules more 
governmentwide, if you will, for anybody seeking a security 
clearance, and they are really quite explicit about what is 
expected. The security clearance rules caution against contact 
with a foreign national ``if that contact create a heightened 
risk of foreign exploitation, inducement, manipulation, 
pressure, or coercion.'' The guidelines also warn ``against 
conduct, especially while traveling outside the United States, 
which may make an individual vulnerable to exploitation, 
pressure, or coercion by a foreign person, group, government, 
or country,'' and that is a really pretty high standard.
    What becomes of these guidelines, the Secret Service's own 
Code of Conduct and the general governmentwide rules for people 
who have security clearances? In other words, were the agents, 
including those involved in this misconduct in Cartagena, were 
they required to study these guidelines? Were they given 
training sessions in them? In other words, anybody in their 
right mind as a Secret Service agent, if they faced reality, 
would have known that what they were doing in Cartagena that 
night was just outrageously unacceptable and irresponsible. But 
assuming for a moment they weren't in their right mind, do you 
think they were adequately on notice of these rules of conduct 
that this behavior was unacceptable?
    Mr. Sullivan. Senator, I do. We are talking about two 
different issues here. You have Codes of Conduct, and then you 
have the security clearance issue. I will talk about Code of 
Conduct first.
    Code of Conduct with us starts from the recruitment 
process. From the very beginning when we hire somebody to come 
work for us, the first thing we talk to them about is character 
and integrity. That is part of our background investigation. 
That is part of the conversation that we have with the 
employee. That is part of our polygraph. That goes right 
through their initial training. From their first day on the job 
and through their orientation, we talk about our Codes of 
Conduct. That is also reinforced when they go through the 
Federal Law Enforcement Training Center. It is reinforced again 
when they go to our training facility in Beltsville, Maryland. 
About a week or two before the agent or officer graduation, I 
myself and the Deputy Director meet with each class for about 
an hour and a half. The first thing we talk about is character, 
and we tell these individuals that the thing that separated 
them from the others was their character and their integrity.
    When they go back into their field office, they have to 
annually certify that they have read our Code of Conduct, that 
they understand our Code of Conduct, and that is done with 
their supervisor. And in between, as they go through the 
organization, they attend our various training classes, whether 
it is a supervisory training class or an in-service training 
class, or when they get into upper management, we continue to 
talk about our Code of Conduct.
    As far as the security clearance issues, as you know, 
Senator, we have adjudicative guidelines where this is all 
spelled out. As a matter of fact, on the passport that we 
travel on, it is indicated on the passport that you will abide 
by the rules and regulations of the organization and of the 
United States.
    So, Senator, I do believe that it is pretty clear, I think, 
to anybody in our organization. It is a common-sense thing to 
me and a moral thing to me that people understand what the 
expectation is.
    Chairman Lieberman. Thank you for that answer. I hope you 
will take a fresh look at it, notwithstanding everything you 
have said, to make sure that you are drilling all these values 
that are important to the Secret Service, that are on paper, 
that you have updated since Cartagena in a constructive way, so 
that the next time a Secret Service agent or group of them 
think about doing something like they did in Cartagena that 
night, that a light will go off in their heads and they will 
conclude the risk is too high. Probably in the short run, the 
memory of Cartagena and the dishonor brought on the agents 
there will be so fresh that this will not happen. But human 
nature being what it is, over a period of time--we need to have 
rules and procedures for drilling those rules into personnel 
that go on for a much longer period of time, to a time when 
what happened in Cartagena may not be as fresh in the minds of 
future Secret Service agents.
    My time is well up. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Director Sullivan, initially, you did not have information 
about these women. Initially, you did not know whether they 
were prostitutes or foreign agents or members of a terrorist 
group or working for a drug cartel. Is that correct?
    Mr. Sullivan. That is correct, Senator.
    Senator Collins. So was there a sweep done of the hotel 
rooms to see whether the women involved had planted any 
electronic surveillance equipment?
    Mr. Sullivan. Senator, one of the things we tell all of our 
people on a foreign trip is never trust that your room is safe. 
We did not do any type of a sweep on any of these rooms that 
were used by these agents and officers.
    Senator Collins. I would understand that there was no sweep 
before the incident, but when you first learned of the 
incident, was there any order given to do a sweep of the rooms 
that the women had been in?
    Mr. Sullivan. Other than a visual sweep, there was no type 
of electronic sweep that was made. There was a visual sweep. 
People went through the rooms. But as far as any type of 
electronic sweep, Senator, there was not.
    Senator Collins. Have you now been able to definitively 
conclude that the women were not associated with foreign 
agents, that they did not work for drug cartels, that they were 
not involved in human trafficking, that they were not working 
for FARC, for example, or other terrorist groups?
    Mr. Sullivan. One of the first things we did, Senator, was 
to get the names of all the women. We had their country 
identification number. We provided those names and identifiers 
to some of our various partners out there who could verify for 
us if there was any connection with any type of criminal 
activity or criminal organization as well as any type of 
intelligence concerns that we may have. All of the information 
that we have received back has concluded that there was no 
connection either from an intelligence perspective or a 
criminal perspective.
    We have also been able to interview, I believe, all but two 
women. I think we have interviewed nine or ten of the women, 
working with the local police in Colombia and, again, that, 
from all appearances in those interviews, has backed up the 
information that we have been able to derive from these checks 
we have done.
    Senator Collins. It is somewhat ironic that we can be 
relieved that the women for the most part were simply 
prostitutes. That is a rather strange thing for us to take 
comfort in in this case, but obviously, it would have been more 
troubling if they were foreign agents or associated with drug 
cartels or other criminal gangs.
    Mr. Sullivan. Yes, Senator. Again, our investigation has 
pretty much confirmed that these women did not know who these 
individuals were, and were not aware that they worked for the 
Secret Service.
    Senator Collins. I want to return to an exchange that you 
had with Senator Johnson. I believe during that exchange you 
referred to a governmentwide survey that asked certain Federal 
employees whether they would report ethical misconduct. Did I 
understand correctly that you said that 60 percent of the 
Secret Service personnel who were interviewed for this survey 
said that they would report ethical misconduct and 40 percent, 
approximately, said they would not?
    Mr. Sullivan. No, Senator, I think it was something like 58 
or 60 percent said they would. I think there was about 18 or 19 
percent who said they would not. And then I think there might 
have been the remaining percentage who just were indifferent 
towards it.
    Senator Collins. Doesn't that suggest a broader problem?
    Mr. Sullivan. Senator, I think that is a number that we 
need to raise up. I think that is something that we need to 
work on. I do not know if that presents a problem. I want to 
look at that. That is part of the theme that I have talked to 
Director Berry from OPM about because I would like to see that 
number increase.
    Senator Collins. From my perspective, when you combine the 
facts of this case, the fact that the agents made no attempt to 
conceal their identities or the fact that they were bringing 
these women back to their hotel rooms, a survey in which fewer 
than 60 percent of the Secret Service personnel said that they 
would report ethical misconduct, the fact that this was not, as 
I said in my opening statement, a group of individuals who just 
got swept up into a situation but, rather, smaller groups who 
engaged in the same kinds of misconduct, to me that just spells 
a broader problem with culture in the agency. And I say that 
with the greatest respect for the vast majority of people 
working for the Secret Service who do extraordinary work and so 
courageously. But that does not mean that there is not a 
problem.
    So my final question to you today is: If I finally become 
successful in convincing you that there is a broader problem 
here with culture or with unacceptable behavior being condoned 
when agents are on the road, what actions would you take to 
address this problem that you are not taking now? How would you 
change the culture of an agency?
    Mr. Sullivan. Senator, I am hoping that I can convince you 
that it is not a cultural issue.
    Senator Collins. I know, but----
    Mr. Sullivan. Again, Senator I look at the number of 
cases--one of the things I know as the Director is that on any 
given day, I potentially am going to have an employee who is 
going to get into some type of an incident. It might be a 
serious one. It might not be a big one at all. But, again, I 
just keep going back to under 1 percent of our investigations 
have some type of misconduct. But that is why I do feel very 
optimistic about this Professionalism Reinforcement Working 
Group. We have over 45 senior executives throughout the Federal 
Government, from the military, from other law enforcement, and 
from non-law enforcement--I do want to be very open with them, 
I want to be transparent, and I want them to take a hard look 
at us. But, again, it is my opinion that the overwhelming 
majority of the men and women of this organization are part of 
a great culture.
    I think the thing that makes our organization what it is is 
our culture. I think that we have a culture of hard-working 
people that are committed, that work hard every single day. 
And, when I was out at the NATO summit in Chicago, Senator, I 
walked around and I must have talked to a couple hundred agents 
out there. And I can tell you that there is nobody who is more 
disappointed by this behavior, who is more upset with this 
behavior, than our men and women. But I have 100 percent 
confidence in our men and women, and I just do not think that 
this is something that is systemic within this organization.
    Senator Collins. Are there any additional actions that you 
would be taking if you felt that there was a systemic problem?
    Mr. Sullivan. Well, again, I think that we would have more 
training. I think training is a big thing, and I think you can 
never do enough training, and training is something that we try 
to be very proactive with. But I think we just need to 
continually drill into our people what the result is going to 
be of a bad decision. And, quite frankly, Senator, I do think 
that the action we have taken for these bad decisions, I think 
that sends a pretty strong message to the men and women of this 
organization that this will not be tolerated.
    Senator Collins. I know I promised you that was my last 
question, but I do have just one final question. You stated 
earlier that you feel that this incident in Colombia would have 
become public even if there had not been the dispute over 
money. What is your basis for feeling that the incident would 
have become public, particularly in light of this survey?
    Mr. Sullivan. We had almost 200 people there, and, again, 
it just goes back to how confident I am in the men and women of 
our organization. And we are talking about a pretty significant 
event here. We are talking about 11 individuals, now 12 
individuals, who took part in this misconduct. And I just 
believe--and I have a lot of faith in our men and women--that 
somebody would have reported this misconduct because this just 
goes beyond the pale. And I truly do believe that they would 
have made a complaint either to our Office of Professional 
Responsibility or to the DHS IG.
    Senator Collins. Thank you, Mr. Chairman. Thank you.
    Mr. Sullivan. Thank you, Senator.
    Chairman Lieberman. Thank you, Senator Collins.
    So I understand, if I can put it this way, that both your 
own faith in the Secret Service, which is a result of your own 
experience--I know you have been an extraordinary Secret 
Service agent and leader yourself. What happened in Cartagena 
happened. You do not have to have the suspicions that most 
others have that it is hard to believe that this was the only 
case. But to some extent, I think while you maintain your faith 
in the Secret Service, going forward I think you have to assume 
that it was not the only case. What I believe you are trying to 
do is to put in place rules and procedures to make sure to the 
best of your human ability that it never happens again. And I 
was thinking about a slogan that we talk about a lot in the 
field of domestic counterterrorism, which started in New York, 
``See Something, Say Something.''
    This is not easy. Those numbers that you mentioned, Senator 
Collins, point to about a little less than 60 percent saying 
they would definitely report misconduct by a fellow Secret 
Service employee, there is a natural tendency in organizations 
either not to want to get your colleagues in trouble or in a 
sense to not want to get yourself involved in a controversy. 
But in the end, as we saw here, what suffers is a great 
organization. And I just hope all the personnel of the Secret 
Service have learned that and that you will try to put in place 
rules and procedures that will continue to telegraph that 
message for years and years after you and others leave the 
agency.
    As Senator Portman mentioned, I was a protectee during the 
2000 presidential campaign. I had nothing but the highest 
regard and really gratitude for the Secret Service details that 
were with me and my family. They were people of honor, of great 
discipline. They were so obviously committed to protecting our 
safety and security.
    And so like you, I think, when this story came out, I was 
just heartbroken. And then I was angry at the people who did 
this. And I think we have to preserve those feelings and not be 
at all defensive here, because this is like a wound to a body 
and we have to get in it, find out what happened, clean it out, 
let it heal, and then make sure that you particularly put in 
place rules and procedures that will make sure that this great 
body, if I can continue the metaphor, will never be subject to 
being wounded again in this way.
    I appreciate very much the presence and the testimony of 
both of you. I appreciate what you have done, both of you, 
since this incident became public. The Committee is going to 
continue to conduct its own investigation and work with both of 
you to make sure that we achieve the objectives that I know we 
all have, which is to restore total public trust and confidence 
in the Secret Service agency so that it can fulfill its 
critical missions at the highest levels of honor and 
excellence, which has been the norm over its history. We want 
it to be the norm in the years ahead.
    Senator Collins, would you like to add anything?
    Senator Collins. Thank you, Mr. Chairman.
    Director Sullivan, in reflecting on the many conversations 
that we have had and listening to you today, I cannot help but 
think that because you personally are such an outstanding 
individual, completely ethical, dedicated, courageous, 
everything we would want the head of the Secret Service to be, 
and because in your career you did not happen to see this kind 
of behavior, that it is very difficult for you to accept that 
this happened. And I urge you to try to put that aside because 
if there is a problem, if the Washington Post story today is 
correct, you cannot be confident that this has not happened 
before and that it will not happen again, unless a very clear 
message is sent that the rules are not different when agents 
are on the road. They are exactly the same rules that apply in 
their home towns. And I think that is a very important message 
for you to send regardless of your sense of disbelief that this 
could have happened.
    And I just want to close my remarks today by thanking the 
brave men and women of the Secret Service, of law enforcement, 
and of the military who do put their lives on the line for us 
and who do perform such dangerous jobs so extraordinarily well 
in the vast majority of cases. But if we ignore or downplay 
what happened here, it can be like a cancer. It can spread and 
cause the entire agency to be tarnished, if you will.
    So I hope that you will continue not only your no-holds-
barred investigation and the disciplinary actions which are so 
clearly warranted in this case, but that you will also take a 
really hard look at what procedural changes and training 
changes need to be made, because I continue to believe that the 
problem is broader than you believe it to be. But I thank you 
for your leadership and your cooperation.
    Chairman Lieberman. Thanks, Senator Collins.
    Director, did you want to add something?
    Mr. Sullivan. Chairman, Senator, again thank you very much 
for your time, and I just want to make sure that--I hope I have 
not given you the impression that this is something that we 
have not taken seriously or that I am going to ignore. This 
cannot be ignored. And hopefully everyone has seen with the 
action that we have taken that we will not tolerate this type 
of behavior. And as I said, moving forward, I do want to take a 
hard look at our organization, and that is why I have been so 
aggressive with bringing in these outsiders. I know this is 
something that internally, we may not be the best individuals 
to do it and that we do need to bring outside people in to take 
a look at our organization. And as I said before, we are not 
looking to just be better; we are looking to be the best. But I 
do believe in the men and women of this organization. I do 
believe that they, too, want to make us not only better but the 
best. I appreciate your support, and I look forward to 
continuing to work with you on this, and I value the 
relationship. Also, I value the opportunity that we have had to 
be able to talk to you about this both here and offline.
    But I will tell you that this is a great organization with 
great people, and if there are any issues we need to resolve, 
we are going to resolve them.
    Chairman Lieberman. Thanks. Mr. Edwards, do you want to add 
anything?
    Mr. Edwards. Chairman, I want to give you my commitment 
that we are going to do a comprehensive review and an 
independent investigation and report back to you on the 
findings and recommendations as soon as possible.
    I just want to repeat the Web site for our hotline. It is 
oig.dhs.gov, and we also have an 800 number. It is 800-323-
8603, both anonymous and people with their names can submit 
their allegations or any issues, and we will respond 
accordingly.
    Thank you, sir.
    Chairman Lieberman. Excellent. Thank you. The record of 
this hearing will remain open for 15 days for any additional 
questions and statements.
    With that, again I thank you. The hearing is adjourned.
    Mr. Sullivan. Thank you, Mr. Chairman.
    [Whereupon, at 12:27 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5215.001

[GRAPHIC] [TIFF OMITTED] T5215.002

[GRAPHIC] [TIFF OMITTED] T5215.003

[GRAPHIC] [TIFF OMITTED] T5215.004

[GRAPHIC] [TIFF OMITTED] T5215.005

[GRAPHIC] [TIFF OMITTED] T5215.006

[GRAPHIC] [TIFF OMITTED] T5215.007

[GRAPHIC] [TIFF OMITTED] T5215.008

[GRAPHIC] [TIFF OMITTED] T5215.009

[GRAPHIC] [TIFF OMITTED] T5215.010

[GRAPHIC] [TIFF OMITTED] T5215.011

[GRAPHIC] [TIFF OMITTED] T5215.012

[GRAPHIC] [TIFF OMITTED] T5215.013

[GRAPHIC] [TIFF OMITTED] T5215.014

[GRAPHIC] [TIFF OMITTED] T5215.015

[GRAPHIC] [TIFF OMITTED] T5215.016

[GRAPHIC] [TIFF OMITTED] T5215.017

[GRAPHIC] [TIFF OMITTED] T5215.018

[GRAPHIC] [TIFF OMITTED] T5215.019

[GRAPHIC] [TIFF OMITTED] T5215.020

[GRAPHIC] [TIFF OMITTED] T5215.021

[GRAPHIC] [TIFF OMITTED] T5215.022

[GRAPHIC] [TIFF OMITTED] T5215.023

[GRAPHIC] [TIFF OMITTED] T5215.024

[GRAPHIC] [TIFF OMITTED] T5215.025

[GRAPHIC] [TIFF OMITTED] T5215.026

[GRAPHIC] [TIFF OMITTED] T5215.027

[GRAPHIC] [TIFF OMITTED] T5215.028

[GRAPHIC] [TIFF OMITTED] T5215.029

[GRAPHIC] [TIFF OMITTED] T5215.030

[GRAPHIC] [TIFF OMITTED] T5215.031

[GRAPHIC] [TIFF OMITTED] T5215.032

[GRAPHIC] [TIFF OMITTED] T5215.033

[GRAPHIC] [TIFF OMITTED] T5215.034

[GRAPHIC] [TIFF OMITTED] T5215.035

[GRAPHIC] [TIFF OMITTED] T5215.036

[GRAPHIC] [TIFF OMITTED] T5215.037

[GRAPHIC] [TIFF OMITTED] T5215.038

[GRAPHIC] [TIFF OMITTED] T5215.039

[GRAPHIC] [TIFF OMITTED] T5215.040

[GRAPHIC] [TIFF OMITTED] T5215.041

[GRAPHIC] [TIFF OMITTED] T5215.042

[GRAPHIC] [TIFF OMITTED] T5215.043

[GRAPHIC] [TIFF OMITTED] T5215.044

[GRAPHIC] [TIFF OMITTED] T5215.045

[GRAPHIC] [TIFF OMITTED] T5215.046

[GRAPHIC] [TIFF OMITTED] T5215.047

[GRAPHIC] [TIFF OMITTED] T5215.048

[GRAPHIC] [TIFF OMITTED] T5215.049

[GRAPHIC] [TIFF OMITTED] T5215.050

[GRAPHIC] [TIFF OMITTED] T5215.051

[GRAPHIC] [TIFF OMITTED] T5215.052

[GRAPHIC] [TIFF OMITTED] T5215.053

[GRAPHIC] [TIFF OMITTED] T5215.054

[GRAPHIC] [TIFF OMITTED] T5215.055

[GRAPHIC] [TIFF OMITTED] T5215.056

[GRAPHIC] [TIFF OMITTED] T5215.057

[GRAPHIC] [TIFF OMITTED] T5215.058

[GRAPHIC] [TIFF OMITTED] T5215.059

[GRAPHIC] [TIFF OMITTED] T5215.060

[GRAPHIC] [TIFF OMITTED] T5215.061

[GRAPHIC] [TIFF OMITTED] T5215.062

[GRAPHIC] [TIFF OMITTED] T5215.063

[GRAPHIC] [TIFF OMITTED] T5215.064

[GRAPHIC] [TIFF OMITTED] T5215.065

[GRAPHIC] [TIFF OMITTED] T5215.066

[GRAPHIC] [TIFF OMITTED] T5215.067

[GRAPHIC] [TIFF OMITTED] T5215.068

[GRAPHIC] [TIFF OMITTED] T5215.069

[GRAPHIC] [TIFF OMITTED] T5215.070

[GRAPHIC] [TIFF OMITTED] T5215.071

[GRAPHIC] [TIFF OMITTED] T5215.072

[GRAPHIC] [TIFF OMITTED] T5215.073

[GRAPHIC] [TIFF OMITTED] T5215.074

[GRAPHIC] [TIFF OMITTED] T5215.075

[GRAPHIC] [TIFF OMITTED] T5215.076

[GRAPHIC] [TIFF OMITTED] T5215.077

[GRAPHIC] [TIFF OMITTED] T5215.078

[GRAPHIC] [TIFF OMITTED] T5215.079

[GRAPHIC] [TIFF OMITTED] T5215.080

[GRAPHIC] [TIFF OMITTED] T5215.081

[GRAPHIC] [TIFF OMITTED] T5215.082

[GRAPHIC] [TIFF OMITTED] T5215.083

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
